ScotiaLine
(Sin Garantía)
ScotiaLine es una línea de crédito de Scotiabank de Puerto Rico.
1)

Definiciones — Las siguientes palabras, cuando se usen en este contrato con letra mayúscula inicial, tendrán los significados que se establecen
a continuación:
a) “Usted” significa la persona que solicita o acepta este contrato;
b)

“Persona Autorizada” significa cualquier persona a quien Usted autorice a acceder su cuenta ScotiaLine, según se establece más adelante
en la sección 5);

c)

“Nosotros” significa Scotiabank de Puerto Rico;

d)

“Línea de Crédito” significa el dinero que Usted y las Personas Autorizadas podrán acceder mediante el uso de Cheques de ScotiaLine o a
través de su cuenta de depósito, (si aplica);

e)

“Cheque” significa los instrumentos que proveeremos para que Usted y las Personas Autorizadas accedan su cuenta ScotiaLine;

f)

“ScotiaLine” significa el producto objeto de este contrato, que es una la Línea de Crédito;

g)

“Balance Vencido” significa cualquier balance cuyo pago haya sido requerido en un estado de cuenta anterior y no haya sido pagado.

2)

Contrato — Su cuenta ScotiaLine se regirá por los términos, cláusulas y condiciones que se establecen en este contrato, según sea éste
enmendado de tiempo en tiempo. El que Usted utilice cualquier servicio de ScotiaLine equivaldrá a que Usted acepta este contrato.

3)

Cancelación del contrato
a) Cancelación por Usted. Usted tendrá derecho a cancelar este contrato si así nos lo notifica por escrito dentro de 15 días de su recibo, si
todavía ni Usted ni una Persona Autorizada han utilizado un servicio de ScotiaLine, y Usted nos devuelve todos los Cheques.
Posteriormente Usted podrá cancelar este contrato en cualquier momento si:
i)

nos notifica la cancelación por escrito enviándola a la dirección detallada en la sección 27)b) de este acuerdo.

ii)

ni Usted ni ninguna Persona Autorizada vuelve a usar un servicio de ScotiaLine, y

iii)

Usted nos devuelve todos los Cheques.

Después de la cancelación, Usted podrá seguir pagando el balance que nos adeude, conforme a los términos de este contrato.
b)

Cancelación por Nosotros. Nosotros tendremos derecho a cancelar este contrato en cualquier momento si se lo notificamos por escrito.
En ese caso ni Usted ni ninguna Persona Autorizada podrá seguir usando los servicios de ScotiaLine, y Usted vendrá obligado a
devolvernos todos los Cheques.

Después de la cancelación, Usted podrá seguir pagando el balance que nos adeude, conforme a los términos de este contrato, a menos que la
cancelación conlleve el pago inmediato de la totalidad del balance adeudado, según se establece más adelante en la sección 25).
4)

Uso de ScotiaLine
a) Usted y las Personas Autorizadas podrán usar ScotiaLine solamente para fines personales y familiares, pero no para propósitos de
negocios.
b)

La Línea de Crédito será de naturaleza rotativa; o sea, que se podrán volver a tomar prestadas las sumas que pague, hasta el límite de
crédito que establezcamos a tenor con la sección 8).

c)

Usted y las Personas Autorizadas podrán usar los Cheques para acceder la Línea de Crédito, y de esa forma: (i) adquirir mercancía y
servicios de aquellos comerciantes que acepten los Cheques (a quienes Usted y las Personas Autorizadas nos autorizan pagar el importe
correspondiente), y (ii) para recibir de Nosotros adelantos de efectivo.
No podremos certificar Cheques.

5)

Personas Autorizadas — Usted podrá designar Personas Autorizadas con facultad para utilizar los servicios de su cuenta ScotiaLine.

6)

Obligación de pagar — Usted nos adeudará las sumas cargadas a su cuenta ScotiaLine por (i) compras de mercancía o servicios, (ii) Cargos por
Financiamiento y (iii) otros cargos aplicables, todo en moneda del curso legal de los Estados Unidos de América, y vendrán obligados a
pagarnos las mismas cuando reciban el estado de cuenta objeto de la sección 15).

7)

Garantía colateral — La garantía colateral (si alguna) que se describe al final de este contrato garantiza el fiel cumplimiento por parte de Usted
de todas las deudas y otras obligaciones bajo este contrato. Podremos conceder prórrogas, tomar y aceptar garantías adicionales o sustitutas,

Página 1

ScotiaLine – Sin garantía
Contrato Rev. 9-19

ceder y pignorar dicha colateral, aceptar transacciones y arreglos, conceder relevos y descargos, y negociar en cualquier otra forma en que
creamos aconsejable con relación a dicha colateral, sin que tales actuaciones perjudiquen nuestros derechos contra Usted. Nosotros no
estaremos obligados a proceder contra la colateral, o de otra forma agotar nuestros remedios respecto a ella, antes de cobrar la deuda y otras
obligaciones incurridas bajo este contrato por Usted. Por el contrario, Nosotros podremos optar por utilizar cualquier remedio que tengamos
a nuestro alcance para cobrar dichas deudas y hacer cumplir dichas obligaciones, sin perjuicio de luego proceder contra la colateral.
8)

Límite de crédito —
a) En la parte inferior de la página cinco (5) se indica el límite de crédito que hemos aprobado para su cuenta ScotiaLine. El total que Usted
nos adeude no podrá exceder del límite de crédito aprobado. Tendremos derecho (a nuestra opción) a hacer lo siguiente en caso que se
exceda el límite de crédito:
i) Cancelar este contrato y requerirle a Usted el pago inmediato de cualquier cantidad en exceso del limite, o

b)

c)

9)

ii)

exigir de Usted el pago inmediato toda suma que nos adeuden en exceso del límite de crédito, sin que esto les dé derecho a
excederse de dicho límite en el futuro; o

iii)

no exigirles pago del exceso, sin que esto les dé derecho a excederse de dicho límite en el futuro.

Podremos reducir su límite de crédito, y podremos también suspender provisionalmente el acceso a su cuenta ScotiaLine, en cualquiera
de los siguientes casos:
i) si razonablemente creemos que Usted no podrá cumplir con sus obligaciones de pago a tenor con este contrato debido a un cambio
material en su situación económica;
ii)

si Usted incumple con una obligación sustancial de este contrato;

iii)

si una actuación de una agencia de gobierno nos prohíbe imponerle la Tasa de Porcentaje Anual que se establece en este contrato;

iv)

si una de nuestras agencias reguladoras nos notifica que continuar concediendo crédito bajo este contrato constituye una práctica
peligrosa e insegura.

El Banco no será responsable si una compra o adelanto en efectivo no es aprobado por el Banco o un tercero, aun en el caso de que
usted tenga crédito disponible. El Banco puede limitar el número de compras o adelantos de efectivo aprobados durante un día. Si el
Banco detecta actividad poco usual en su cuenta, podrá suspender temporalmente su crédito hasta tanto se verifique la legitimidad de la
transacción.

Devolución Cheques — Los Cheques son propiedad del Banco, y podremos en cualquier momento exigir su devolución en caso que Usted o
Nosotros decidamos cancelar este contrato. En esos casos Usted se obliga a devolvernos los Cheques.

10) Cargo por Financiamiento — Su cuenta ScotiaLine devengará un Cargo por Financiamiento. Determinaremos el Cargo por Financiamiento
multiplicando el “Balance Promedio Diario” pendiente de pago durante el período de facturación que establezcamos a tenor con la
sección 15), por la Tasa Periódica. La Tasa Periódica inicial y su Tasa de Porcentaje Anual correspondiente están divulgadas al final del
contrato. La Tasa Periódica y la Tasa de Porcentaje Anual correspondiente podrán fluctuar según se establece en la sección 12).
11) Período de gracia —Compras de mercancía y servicios. En el caso de compras de mercancía y servicios impondremos un Cargo por
Financiamiento a partir de la fecha en que paguemos al vendedor de la mercancía o proveedor del servicio. No existirá un periodo de gracia
durante el cual Usted podrá saldar el balance sin incurrir en un Cargo por Financiamiento.
12) Intereses variables — La tasa de interés que utilizaremos para computar la Tasa Periódica y la Tasa de Porcentaje Anual correspondiente
podrá cambiar el primer día de cada período de facturación, y será efectiva para ese período de facturación siguiente. La tasa de interés
aplicable será igual al “Prime Rate” vigente el primer día del período de facturación, más el número de puntos porcentuales que se establece
como margen en la Declaración de Cargos. “Prime Rate” será la tasa base para préstamos comerciales anunciada por no menos del 75% de los
30 bancos más grandes en los Estados Unidos, según publicada en el periódico The Wall Street Journal bajo ese nombre (“Prime Rate”). En sus
estados de cuenta le informaremos la Tasa Periódica resultante y la Tasa de Porcentaje Anual correspondiente. La Tasa de Porcentaje Anual
podrá cambiar cada mes.
13) Tasa especial para solicitantes cubiertos por la Ley de Prestamos a Militares (MLA) - Aquel solicitante que al momento de solicitar para el
producto de crédito aplicable sea identificado como un militar activo o dependiente cubierto, según establecido por la Ley de Préstamos a
Militares (MLA), tendrá el beneficio de obtener una tasa de porcentaje anual (APR) especial de 6.00%. Esta tasa estará considerada como
parte de la tasa de porcentaje anual militar (MAPR), que según requerido por la Ley de Préstamos a Militares no excederá un 36.00% (MAPR).
Esta tasa especial estará vigente siempre y cuando el militar permanezca en el servicio activo. Una vez el militar culmine el servicio activo se le
aplicara la tasa de interés anual (APR) prevaleciente.
14) Balance Promedio Diario — Computaremos el Cargo por Financiamiento utilizando el método conocido como “Balance Promedio Diario”, el
cual obtendremos sumando los balances adeudados al final de cada día del período de facturación, y dividiendo el resultado entre el número
de días comprendidos en dicho período. Determinaremos los balances adeudados al final de cada día sumando: (i) el Balance Final del día
anterior, (ii) las compras de mercancía y servicios, y (iii) los adelantos de efectivo; y restando los pagos y otros créditos abonados durante el
día. Efectuaremos la suma y resta de estas partidas antes de computar el Cargo por Financiamiento.

Página 2

ScotiaLine – Sin garantía
Contrato Rev. 9-19

15) Estado de cuenta — Dividiremos el año natural en 12 períodos de facturación de aproximadamente 30 días cada uno. Le enviaremos por
correo un estado de cuenta para cada período de facturación para el que Usted adeude un balance. En cada estado indicaremos, entre otras
cosas: (i) Balance Anterior, (ii) una identificación de pagos y créditos, débitos, compras de mercancía y servicios efectuados durante el período
en cuestión, (iii) Cargo por Financiamiento, (iv) Tasa Periódica, (v) Tasa de Porcentaje Anual, (vi) balance sobre el cual se computó el Cargo por
Financiamiento, (vii) Balance Nuevo, (viii) Pago Mínimo, (ix) fecha en que vencerá el Pago Mínimo, (x) fecha de cierre del estado y (xi) sus
derechos de reclamación por errores en facturación.
16) Pago mínimo — Usted podrá pagar la cantidad total o una parte del nuevo balance que aparece en su estado de cuenta mensual, pero debe
pagar por lo menos el pago mínimo mensual, calculado como sigue: 3% del nuevo balance, más cualquier balance vencido y/o cantidad sobre
el límite aprobado, o $25, lo que sea mayor.
17) Aplicación de pagos — El Banco acreditará el pago el mismo día en que sea recibido cuando éste se efectúe: (a) en efectivo o en cheque a
través de una de las sucursales del Banco, antes de la hora de cierre; (b) electrónicamente antes de las 5:00 p.m. de lunes a sábado; o (c) a
través de correo junto al talonario de pago a la dirección que aparece en el Estado de Cuenta del Cliente, siempre y cuando el pago sea
recibido antes de las 5:00 p.m. de lunes a viernes.
18) Disponibilidad del crédito — Cuando el método de pago utilizado no sea en efectivo, el Banco aplazará la disponibilidad de los fondos
equivalentes al importe de pago, por un periodo de hasta cinco (5) días laborables. Esto significa que a pesar de que su pago va a ser
acreditado, no va a tener disponible ese balance hasta que haya transcurrido dicho periodo. Esto no conllevará cargos adicionales a su cuenta
por concepto de cargos por financiamiento.
19) Cargo por mora — Si no recibimos, por lo menos, el pago mínimo requerido en su estado de cuenta a la fecha de vencimiento de pago
determinada en su estado de cuenta, podremos imponer un cargo por mora de $25.00. Violaciones del mismo tipo, subsiguientes a la primera
ofensa, dentro de los siguientes seis meses estarán sujetas a un cargo por mora de hasta $30.00. Posterior al transcurso de estos seis meses,
la próxima violación estaría sujeta al cargo por mora de $25.00 y comenzará a trascurrir nuevamente un periodo de seis meses en el que se
podrá imponer un cargo por mora de hasta $30.00. Sólo impondremos el cargo por mora una vez por cada pago mínimo no pagado a tiempo.
20) Cargo por cheque devuelto — Por cada cheque que Usted nos entregue, que nos sea devuelto sin pagar, cargaremos a su cuenta ScotiaLine el
cargo por cheque devuelto que se establece en la Divulgación de Cargos y Cuotas.
21) Un cargo por violación como resultado de un evento o transacción— No se impondrá más de un cargo por violación a los términos de su
cuenta como resultado de un evento o transacción. Por ejemplo, si efectúa un pago mediante cheque, el cual es devuelto y como
consecuencia su pago no es recibido antes de la fecha de vencimiento lo que resultaría en un cargo por mora, nosotros impondremos un
cargo por mora, o un cargo por cheque devuelto, pero no se cobrarán ambos, ya que los cargos son resultado del mismo evento o transacción.
22) Cargo por cambio de moneda — Por cada transacción efectuada en moneda extranjera, cargaremos un 1% de la cantidad de la transacción en
USD, adicional a cualquier otro cargo aplicable.
23) Otros cargos — Cualesquiera otros cargos que Usted será responsable de pagar según la Divulgación de Cargos aquí incluidos serán detallados
en su estado de cuenta.
24) Cheques
a) Podremos rehusarnos pagar un Cheque después de seis meses de la fecha del mismo. El que paguemos uno o más Cheques después de
haber transcurrido dicho período no nos obligará a pagar otros Cheques presentados fuera del término.
b)

Usted podrá suspender el pago de un Cheque. No seremos responsables si pagamos un Cheque en cualquiera de los siguientes casos:
i) si recibimos la orden de suspensión luego que el Cheque ha sido cargado a su cuenta;
ii)

si Usted no nos entrega la orden de suspensión por escrito, en el formulario que le suministremos para tal fin;

iii)

si la orden de suspensión no está firmada por la persona que firmó el Cheque;

iv)

si la persona que recibe el pago de hecho tiene derecho al mismo, o hubiese tenido derecho a recobrar de Usted si Nosotros no
hubiésemos pagado el Cheque;

v)

si Usted deja de ejercitar cualquier acción que pudiese tener para recobrar el dinero, ya sea contra la persona que recibe el pago o
contra cualquier otra persona;

vi)

si Usted está de otra forma impedido de colocar la orden de suspensión o de reclamar contra Nosotros.

c)

La duración de una orden de suspensión de pago será de seis meses a partir de la fecha del Cheque, a menos que Usted la hubiese
cancelado previamente por escrito, usando el formulario que suministremos para ese propósito.

d)

Por cada orden de suspensión de pago podremos efectuar el cargo que se establece en la Divulgación de Cargos y cargarlo a su cuenta
ScotiaLine.

e)

Si le devolvemos el importe de un Cheque que fue indebidamente pagado, adquiriremos todos sus derechos de cobrar de la persona que
recibió el pago, y de cualquier otra persona responsable.

Página 3

ScotiaLine – Sin garantía
Contrato Rev. 9-19

25) Pago inmediato de la totalidad del balance adeudado — Podremos exigir el pago inmediato de toda suma que Usted nos adeude bajo este
contrato, en caso que Usted incumpla con sus obligaciones bajo el mismo.
26) Enmiendas a este contrato — Podremos enmendar los términos y condiciones de este contrato mediante aviso por escrito a Usted, antes de la
fecha de efectividad en que el cambio entre en vigor, según requerido por la regulación aplicable. Dicha enmienda aplicará al uso de
ScotiaLine a partir de dicha fecha de vigencia. También le notificaremos por escrito cualquier cambio al Cargo por Financiamiento, Tasa
Periódica, Tasa de Porcentaje Anual u otros cargos aplicables.
a) Si Usted no estuviera de acuerdo con el cambio o cargo notificado, vendrá obligado a hacer lo siguiente durante el plazo del siguiente
período de facturación:
i) notificarnos por escrito que cancela este contrato, antes de la fecha en la que dichos cambios sean efectivos a la dirección provista
en el Sección 27)b), y
ii)

devolvernos todos los Cheques.

Usted podrá seguir pagando el balance adeudado conforme a los términos de este contrato, pero ni Usted ni ninguna Persona Autorizada
podrá hacer cargos adicionales a su cuenta ScotiaLine.
b)

El uso de cualquier servicio de ScotiaLine por Usted o una Persona Autorizada durante el plazo del siguiente período de facturación
confirmará su aceptación de dicha enmienda o cargo.

27) En caso de errores o reclamaciones relacionados con su estado de cuenta:
¿Qué hacer si Usted entiende existe un error en su Estado de Cuenta?
En caso de errores o reclamaciones relacionados a su estado de cuenta nos puede llamar al 787-766-4999 ó 1-877-766-4999 o escribir a:
Scotiabank de Puerto Rico
PO Box 362230
San Juan, PR 00936-2230
Puede también contactarnos a través de nuestra página electrónica: www.scotiabankpr.com
Deberá presentar su reclamación por escrito. Su reclamación debe incluir:
• Información sobre cuenta: Su nombre y número de cuenta
• Cantidad reclamada: La cantidad en dólares del alegado error
• Descripción del alegado error: una descripción del aparente error y explicación de por qué usted considera que existe un error.
El Banco deberá recibir su reclamación dentro de los sesenta (60) días siguientes a la fecha del envío del primer Estado de Cuenta donde
aparece el alegado error.
Usted deberá notificarnos de cualquier error potencial por escrito [o electrónicamente]. Nos puede llamar por teléfono pero si lo hace no
estamos obligados a investigar cualquier error potencial y usted pudiera tener que pagar el alegado error en cuestión.
Durante la investigación, el Banco no tomará ninguna acción para:
a) Cobrar la cantidad reclamada o informar dicha cantidad reclamada como atrasada.
b) La cantidad reclamada pudiera mantenerse en su estado de cuenta, y nosotros pudiéramos continuar cargando intereses a esa cantidad.
Pero, si nosotros determinamos que hubo un error, usted no tendrá que pagar la cantidad reclamada o intereses o cargos relacionados.
c) Aunque no tiene que pagar la cantidad reclamada, usted es responsable de pagar aquella parte de su Estado de Cuenta que no está
incluida en su reclamación.
d) Nosotros podemos aplicar cualquier cantidad sin pagar contra su línea de crédito.
Si todos los criterios mencionados arriba se cumplen y usted todavía no esta satisfecho con la mercancía o servicios, nos puede contactar por
escrito a:
Scotiabank de Puerto Rico
PO Box 362230
San Juan, PR 00936-2230
Puede también contactarnos a través de nuestra página electrónica: www.scotiabankpr.com
Mientras completamos la investigación, aplicarán las mismas reglas detalladas anteriormente. Si usted debe una cantidad y no paga, nosotros
podemos reportarlo atrasado.
27) Disposiciones misceláneas
a) Referencias de crédito. Usted nos autoriza a investigar sus referencias de crédito. Nos reservamos el derecho de expedir o no expedir
Cheques, y de continuar o cancelar este contrato de acuerdo con nuestro mejor juicio crediticio.
b)

Página 4

Notificaciones. Le enviaremos por correo toda comunicación a la dirección más reciente que Usted nos provea y que obre en nuestros
archivos. Usted deberá informarnos por escrito cualquier cambio en su dirección postal. Usted debe remitir toda correspondencia
dirigida a Nosotros a la siguiente dirección: Scotiabank de Puerto Rico, PO Box 362230, San Juan, PR 00936-2230. Puede también
contactarnos a través de nuestra página electrónica: www.scotiabankpr.com

ScotiaLine – Sin garantía
Contrato Rev. 9-19

c)

No renuncia a derechos. Nuestra omisión de ejercitar cualquier derecho bajo este contrato o bajo la ley aplicable no constituirá una
renuncia a dicho derecho.

d)

Cláusulas nulas. El que alguna cláusula de este contrato, o parte de ella, fuese declarada nula por un tribunal o agencia gubernamental, o
dejase de tener efecto por disposición legal o reglamentaria, no afectará a las restantes disposiciones de este contrato, las cuales
continuarán vigentes.

e)

Todos los acuerdos. Este contrato y la Divulgación de Cargos y Cuotas contienen la totalidad de los acuerdos entre Usted y Nosotros en lo
que respecta a su cuenta ScotiaLine.

f)

Ley aplicable. Este contrato se interpretará a tenor con las leyes del Estado Libre Asociado de Puerto Rico y de los Estados Unidos de
América.

Acepto los términos y condiciones de este Contrato.
Número de Cuenta:

Tasa de Porcentaje Anual (APR) Inicial:

Límite de Crédito:

Tasa Periódica Diaria Inicial:

Nombre Solicitante:

Firma Solicitante:

Nombre Co-solicitante

Firma Co-solicitante:

Descripción Colateral (si
aplica)

Fecha:

10.45%

0.02863%

® Marca de The Bank of Nova Scotia, utilizada bajo licencia. Miembro FDIC. OCIF Lic. 22

Página 5

ScotiaLine – Sin garantía
Contrato Rev. 9-19

Divulgación de Cargos y Cuotas Línea de Crédito ScotiaLine
Tasas de Interés y Cargos
Línea de Crédito

ScotiaLine sin garantía

Tasa de Porcentaje Anual (APR) para
Compras, Adelantos de Efectivo y
Transferencias de Balances

Información Sobre la Tasa de
Porcentaje Anual

Prime Rate + 5.45%
La tasa de porcentaje anual (APR) es variable y se calcula utilizando un índice, conocido como Prime Rate, más un
margen. El índice es la tasa base para préstamos comerciales anunciada por no menos del 75% de los 30 bancos
más grandes en los Estados Unidos, según publicada en el periódico The Wall Street Journal. A este “Prime Rate”
añadiremos un margen de 5.45% para ScotiaLine sin garantía. Aquellos clientes que al momento de solicitar sean
identificados como miembros activos de las fuerzas armadas o dependiente cubierto, según establecido por la Ley
de Préstamos a Militares (MLA), tendrán una tasa de porcentaje anual (APR) especial de 6.00%. La misma será
vigente mientras dure en el servició activo. Una vez su periodo de activación culmine se aplicará la taza de
porcentaje anual (APR) prevaleciente.

1.99% Tasa Introductoria (APR)
Tasa de Porcentaje Anual (APR)
Introductoria para Transferencia de
Balances

Cobro de Intereses
Para Consejos sobre Tarjetas de
Crédito de la Oficina para la
Protección Financiera del Consumidor
Cuotas

Solo para cuentas nuevas
La tasa de interés introductoria (APR) estará disponible desde el 1 de junio de 2019 al 31 de octubre de 2019. Esta
tasa especial estará en efecto por un periodo de seis meses a partir de la fecha de la transacción. Luego de esta
fecha, se aplicará la tasa interés correspondiente según descrita previamente para compras, Adelantos de Efectivo
y Transferencias de Balance. Para que se aplique el APR introductorio, la transacción debe realizarse en una
sucursal de Scotiabank de Puerto Rico.
La fecha de vencimiento del pago es de al menos 25 días después de la fecha de cierre del periodo de facturación.
Los cargos por financiamiento para compras, adelantos de efectivo y transferencias de balances se calcularán desde
la fecha en la cual la transacción es cargada a la cuenta hasta que se pague en su totalidad.
Para conocer más sobre los factores a considerar al momento de solicitar o utilizar una tarjeta de crédito, visite
http://consumerfinance.gov/learnmore/.

Cuota Anual

$0

Cargos por Transferencias de Balances
y Adelantos de Efectivo
Cargo por Cambio de Moneda

No Aplica
1% de la cantidad de la transacción en USD por cada transacción efectuada en moneda extranjera, adicional a
cualquier otro cargo aplicable

Cargo por Pago Devuelto
Cargo por Pago Tardío

$10
Hasta $30

Cargo por Suspensión de Pago

$15

Método para Calcular el Balance: Utilizamos el Método de Balance Promedio Diario, incluyendo compras y transacciones nuevas. Vea los
términos en el contrato para más detalles.
Derechos de reclamos en su facturación: Información relacionada con sus derechos de facturación y resolución de errores y sobre cómo
ejercer los mismos está incluida en los términos en el contrato.
Para más información, comuníquese con nuestro Centro de Contacto al 787-766-4999 ó 1-877-766-4999. También nos puedes escribir al
PO Box 362230, San Juan Puerto Rico 00936-2230.
Nombre del Solicitante: ___________________________________________________
Firma del Solicitante: _____________________________________________________ Fecha: ___________________
Nombre del Cosolicitante: ________________________________________________
Firma del Cosolicitante: __________________________________________________ Fecha: ___________________
® Marca de The Bank of Nova Scotia, utilizada bajo licencia. Miembro FDIC. OCIF Lic. 22
Página 6

ScotiaLine – Sin garantía
Contrato Rev. 9-19

